No. 20-1573
IN THE SUPREME COURT OF THE UNITED STATES
VIKING RIVER CRUISES, INC.,
Petitioner,

v.
ANGIE MORIANA,

Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Respondent’s Brief in Opposition contains 8,989 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
Executed on September 10, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

